KANJI & KATZEN, P.L.L.C.
www.kanjikatzen.com
ANN ARBOR
303 DETROIT ST., SUITE 400
ANN ARBOR, MI 48104
(734) 769-5400

SEATTLE
811 1ST AVE., SUITE 630
SEATTLE, WA 98104
(206) 344-8100

FLAGSTAFF
P.O. BOX 30543
FLAGSTAFF, AZ 86003
(928) 380-3508

April 20, 2021
Mr. Scott S. Harris
Clerk of the Court
The Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Yellen, et al. v. Confederated Tribes of the Chehalis Reservation, et al.,
Nos. 20-543 & 20-544

Dear Mr. Harris,
The sixteen tribes on the Brief of Respondents Confederated Tribes of the
Chehalis Reservation, et al., file this letter to clarify their position on an issue that
arose during oral argument yesterday. Several Justices asked questions about
whether a gap in services to individual Alaska Natives would result from affirmance
of the court of appeals’ decision. See, e.g., Tr. 88-100. In the view of the Confederated
Tribes respondents, the response does not turn on any distinction between the trust
duty owed by the United States to unenrolled versus enrolled individual Alaska
Natives. Some Alaska Natives are enrolled in federally recognized tribes; some
Alaska Natives are ANC shareholders; some are both; and some are neither. The
reason that no gap in services in Alaska would arise is because the federally
recognized tribes in Alaska, in conjunction with non-profit intertribal consortia,
provide the vast majority of ISDA-related programs and services to both enrolled and
unenrolled Alaska Natives. See Confederated Tribes Br. 51-53. While one regional
ANC is indirectly involved in the provision of health-care services to Alaska Natives
in Anchorage, it does so pursuant to distinct statutory authorization. See id. The
government does not dispute, moreover, that its obligation to provide services to
Alaska Natives is independent of ANCs’ status as “Indian tribes” under ISDA. See
id. Nor would an affirmance in this case affect the separate coronavirus relief funding
that Congress has provided for health-care services under both the CARES Act and
the American Rescue Plan Act of 2021. See id. Finally, the ANCs have not cited any
provision making them eligible to receive the special programs and services provided
by the federal government to Indians, and the government has rejected that
proposition. See Gov’t Br. 48.

Respectfully submitted,
KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
2001 K Street, NW
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

RIYAZ A. KANJI
KANJI & KATZEN, P.L.L.C.
303 Detroit Street, Ste. 400
Ann Arbor, MI 48104
(734) 769-5400
rkanji@kanjikatzen.com
CORY J. ALBRIGHT
KATIE E. JONES
LYNSEY R. GAUDIOSO
KANJI & KATZEN, P.L.L.C.
811 1st Avenue, Ste. 630
Seattle, WA 98104
(206) 344-8100
calbright@kanjikatzen.com
kjones@kanjikatzen.com
lgaudioso@kanjikatzen.com

Co-Counsel for Confederated Tribes of the Chehalis Reservation and Tulalip Tribes
Counsel for Akiak Native Community, Aleut Community of St. Paul Island,
Asa’carsarmiut Tribe, and Houlton Band of Maliseet Indians
JOHN E. ECHOHAWK
NATIVE AMERICAN RIGHTS FUND
1506 Broadway
Boulder, CO 80302
(303) 447-8760
jechohawk@narf.org

ERIN C. DOUGHERTY LYNCH
MATTHEW N. NEWMAN
WESLEY JAMES FURLONG
MEGAN R. CONDON
NATIVE AMERICAN RIGHTS FUND
745 West 4th Avenue, Ste. 502
Anchorage, AK 99501
(907) 276-0680
dougherty@narf.org
mnewman@narf.org
wfurlong@narf.org
mcondon@narf.org

Counsel for Arctic Village Council, Native Village of Venetie Tribal Government,
Nondalton Tribal Council, and Rosebud Sioux Tribe
NICOLE E. DUCHENEAUX
BIG FIRE LAW & POLICY GROUP LLP
1404 Fort Crook Road South
Bellevue, NE 68005
(531) 466-8725
nducheneaux@bigfirelaw.com
Counsel for Cheyenne River Sioux
Tribe

LISA KOOP GUNN
Senior Attorney, Tulalip Tribes
6406 Marine Drive
Tulalip, WA 98271
(206) 683-5667
lkoop@tulaliptribes-nsn.gov
Counsel for Tulalip Tribes

HAROLD CHESNIN
Lead Counsel for the Tribe
420 Howanut Road
Oakville, WA 98568
(360) 529-7465
hchesnin@chehalistribe.org
Counsel for Confederated Tribes of the
Chehalis Reservation
BRADLEY G. BLEDSOE DOWNES
General Counsel
2332 Howland Hill Road
Crescent City, CA 95531
(707) 465-2610
bdownes@elk-valley.com
Counsel for Elk Valley Rancheria,
California
LORI BRUNER
Quinault Office of the Attorney
General
136 Cuitan Street
Taholah, WA 98587
(360) 276-8215, Ext. 1403
LBruner@quinault.org
Counsel for Quinault Indian Nation
ALEXANDER B. RITCHIE
Attorney General
P.O. Box 40
16 San Carlos Avenue
San Carlos, AZ 85550
(928) 475-3344
alex.ritchie@scat-nsn.gov
Counsel for San Carlos Apache Tribe

DOREEN MCPAUL
Attorney General
PAUL SPRUHAN
Assistant Attorney General
JASON SEARLE
Navajo Nation Department of Justice
P.O. Box 2010
Window Rock, AZ 86515
(928) 871-6345
dmcpaul@nndoj.org
pspruhan@nndoj.org
jasearle@nndoj.org
Counsel for Navajo Nation
ERIC DAHLSTROM
APRIL E. OLSON
ROTHSTEIN DONATELLI LLP
1501 W. Fountainhead Parkway
Ste. 360
Tempe, AZ 85282
(480) 921-9296
edahlstrom@rothsteinlaw.com
aeolson@rothsteinlaw.com
RICHARD W. HUGHES
DONNA M. CONNOLLY
REED C. BIENVENU
ROTHSTEIN DONATELLI LLP
1215 Paseo de Peralta
Santa Fe, NM 87501
(505) 988-8004
rwhughes@rothsteinlaw.com
dconnolly@rothsteinlaw.com
rbienvenu@rothsteinlaw.com
Counsel for Pueblo of Picuris
Co-Counsel for Navajo Nation

